WAIVER

Supreme Court, U.S.
FILED

NOV 0 6 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Respect Washington

19-474

Global Neighborhood, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
S There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Global Neighborhood; Refugee Connections Spokane; Spokane Chinese Association; Asian Pacific Islander
Coalition - Spokane; Spokane Chinese American Progressives; Spokane Chapter of the National Organization for Women

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

Digitally signed by Dainen Penta
Date: 2019.11.05 14:41:01 -08'00'

Dainen Penta

November 5, 2019

(Type or print) Name

Dainen Penta
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Center for Justice

Address

35 West Main Avenue, Suite 300

City & State
Phone

Spokane, WA

509.835.5211

Zip
Email

99201

dpenta@cforjustice.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Richard Stephens; Michael Ormsby; Dan Catt

RECEIVED
NOV 1 4 2019

CENTER FOR JUSTICE
EMPOWERING PEOPLE & COMMUNITIES

November 5, 2019
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

Respect Washington v. Global Neighborhood, et al.
Case No. 19-474

Dear Clerk of Court:
Enclosed for filing please find a waiver on behalf of Respondents Global Neighborhood,
Refugee Connections Spokane, Spokane Chinese Association, Asian Pacific Islander Coalition —
Spokane, Spokane Chinese American Progressives, and the Spokane Chapter of the National
Organization for Women.
Should you have any questions, please do not hesitate to contact this office.

tfulvours,

D ine
. Penta
Attorney and Executive Director

Encl. as stated
DNP/bm
Richard Stephens (w/encl.)
cc:
Michael Ormsby (w/encl.)
Dan Catt (w/encl.)

RECEIVED 1
NOV 14 2019
2t7RENIOEFO6RY-Flr.

35 WEST MAIN AVENUE, SUITE 300 • SPOKANE, WA 99201 • 509.835.5211 • www.cforjustice.org

